Report No. D-2010-RAM-001          October 30, 2009




               U.S. Army Corps of Engineers
               Data Quality Review Process
                  for Civil Work Programs
Additional Copies
To obtain additional copies of this memorandum, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/recovery/index.html or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703)
604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                          Federal Acquisition Regulation
OMB                          Office of Management and Budget
PPA                          Project Partnership Agreement
RATB                         Recovery Accountability and Transparency Board
USACE                        U.S. Army Corps of Engineers
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON , VIRGINIA 22202-4704 




                                                                    October 30, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)!
                 CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: U.S. Army Corps of Engineers Data Quality Review Processes
         for Civil Works Programs (Memorandum No. D-2010-RAM-001)


The Recovery Accountability and Transparency Board requested this audit. This
memorandum provides the results of our review of the U.S. Army Corps of Engineers data
quality review processes for its Civil Works Programs for the quarter ended September
30,2009, for data required by Public Law 111-5, "American Recovery and Reinvestment
Act of2009." We are making no recommendations, and no written response is required.
Therefore, we are publishing this memorandum in final form. We will continue to review
DOD's progress and issue subsequent memorandums that will discuss our evaluation of
DOD's implementation of the Recovery Act.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5886 (DSN 329-5886).



                                          (J~tf~·
                                             Daniel R. Blair, CPA
                                             Principal Deputy Assistant Inspector General
                                             Defense Business Operations
 Memorandum No. D-2010-RAM-001 Project No. D2009-D000FH-0182.003               October 30, 2009


               Results in Brief: U.S. Army Corps of
               Engineers Data Quality Review Processes
               for Civil Works Programs


What We Did
Our objective was to determine whether the          on September 30, 2009, there was no
U.S. Army Corps of Engineers (USACE) had            requirement for Federal agencies and
established processes to perform limited data       departments to perform limited quality reviews
quality reviews for its Civil Works Programs.       of data submitted by Federal contractors.
These data quality reviews are intended to: (1)     USACE took steps to inform recipients of
identify material omissions and significant         Recovery Act funds of the requirement to
reporting errors in recipient report data and (2)   register and submit the required reports.
notify the recipients of the need to make           USACE developed a process to identify and
appropriate and timely changes. The Recovery        assist recipients that had not registered before
Accountability and Transparency Board               the October 1, 2009, reporting start date.
requested that we perform this time-sensitive       USACE has plans to improve the completeness
audit.                                              and accuracy of reports filed by recipients on
                                                    www.FederalReporting.gov.
We reviewed USACE guidance and processes
for performing limited data quality reviews of      As of October 21, 2009, USACE reported that
data reported by recipients of Federal contracts,   about one-third of all contract recipients had not
grants, and partnership agreements funded by        registered, and recipients had not submitted a
the Civil Works Programs authorized by the          report on about one-half of the contracts
American Recovery and Reinvestment Act of           awarded. As a result, the data reported on
2009 (Recovery Act), February 17, 2009. We          www.Recovery.gov for the quarter ending
compared the USACE processes for performing         September 30, 2009, might contain material
limited data quality reviews to the policy and      omissions or significant reporting errors,
guidance issued by the Office of Management         resulting in significant risk that the public may
Budget (OMB). In addition, we obtained              not be fully informed as to the status of a
USACE data on recipients registered and filing      Recovery Act project or activity. Because of
reports on www.FederalReporting.gov.                the reporting deadline for the audit, we did not
                                                    make site visits to determine reasons for
                                                    recipients not registering and submitting reports
What We Found                                       or evaluate the effectiveness of quality control
USACE developed processes to perform limited        reviews to identify material omissions or
data quality reviews for its Civil Works            significant reporting errors.
Programs. These reviews are intended to
identify material omissions and significant         Management Comments
reporting errors, and to notify Federal contract,
grant, and partnership agreement recipients of      We provided our memorandum to USACE on
the need to make appropriate and timely             October 27, 2009. USACE provided technical
changes. Until OMB issued interim guidance          comments, which we incorporated into the final
                                                    memorandum as appropriate.
Introduction
Objective
Our objective was to determine whether the U.S. Army Corps of Engineers (USACE) had
established processes to perform limited data quality reviews for its Civil Works
Programs. These data quality reviews are intended to: (1) identify material omissions
and significant reporting errors in recipient reported data and (2) notify the recipients of
the need to make appropriate and timely changes. We performed this audit at the request
of the Recovery Accountability and Transparency Board (RATB). 1 See Appendix A for
a discussion of our scope and methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most affected by the recession;
provide investments to increase economic efficiency through technological advances in
science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also provided unprecedented efforts to ensure the
responsible distribution of funds for the Act’s purposes and to provide transparency and
accountability for expenditures so that the public would know how, when, and where
Federal agencies and departments spent tax dollars. Further, the Recovery Act states that
the President and the heads of Federal agencies and departments are to manage and
expend the funds made available by the Act to achieve its purpose, which includes
commencing expenditures for activities as quickly as possible, consistent with prudent
management.

As shown on the following table, under the Recovery Act, Congress appropriated
$4.6 billion to USACE for the following Civil Works Programs: Investigations,
Construction, Operations and Maintenance, Regulatory Program, Formerly Used
Sites Remediation Action Program, and Mississippi River and Tributaries.
                    USACE Recovery Act Civil Works Programs
                      Programs                          Amount
                                                     (in thousands)
Investigations                                                $25,000
Construction                                                2,000,000
Operations and Maintenance                                  2,075,000
Regulatory Program                                             25,000
Formerly Used Sites Remediation Action Program                100,000
Mississippi River and Tributaries                             375,000
Total: USACE Recovery Act Civil Works Programs             $4,600,000

1
  The Recovery Act established the RATB to coordinate and conduct oversight of the funds appropriated by
the Act to prevent fraud, waste, and abuse.


                                                   1
As of September 30, 2009, USACE issued more than 2,750 contracts and modifications
and 52 project partnership agreements (PPAs) and grants totalling $2 billion. 2

Recovery Act Reporting Requirements
The following guidance specifies the reporting requirements for Recovery Act funds
recipients.

Public Law 111-5, American Recovery and Reinvestment Act of 2009 (Recovery
Act), February 17, 2009. Section 1512 of the Recovery Act requires recipients to report
on the use of recovery funds. The Recovery Act defines a recipient as any entity that
receives Recovery Act funds directly from the Federal Government through contracts,
grants, or loans, and includes States that receive funds. Individuals receiving direct
payments from the Federal Government are not subject to the reporting requirements of
the Recovery Act. The prime recipients of contracts, grants, or loans are required within
10 days of the end of each calendar quarter (first report due by October 10, 2009) to
report the following information on the funds received:

    •	 total amount,

    •	 funds expended or obligated on projects or activities,

    •	 description of projects or activities (to include completion status and estimated
       number of jobs created or retained by project or activity), and

    •	 detailed information on any contracts or grants awarded to sub-recipients. 3

OMB, working with the RATB, established a nationwide data collection system at
www.FederalReporting.gov for recipients to report the information required by section
1512. The RATB will make the information reported by recipients available to the public
at www.Recovery.com.

Federal Acquisition Regulation (FAR) Case 2009-009, American Recovery and
Reinvestment Act of 2009 (the Recovery Act)—Reporting Requirements [Interim
Rule], Federal Register, volume 74, number 60, March 31, 2009. The FAR issued the
interim rule to implement section 1512 reporting requirements of the Recovery Act.
Contracting officers are required to include a new clause, 52.204-11, in Federal
solicitations and contracts funded in whole or in part with Recovery Act funds. FAR
clause 52.204-11 requires contractors to register and report specific data using the online

2
  PPAs are cooperative agreements awarded to reimburse non-Federal sponsors, generally local government
activities, for work performed on water-related environmental projects, such as restoration of wetlands, or
protection or resource development projects, such as wastewater treatment and water supply distribution
facilities.
3
  The prime recipients of contracts, grants, or loans are responsible for reporting the detail information
required by the Federal Funding Accountability and Transparency Act of 2006 on any sub-contract or sub-
grant they award that exceeds $25,000. The prime recipient can delegate this reporting responsibility to the
sub-recipient of the contract or grant.


                                                     2

reporting tool available on www.FederalReporting.gov. The interim rule requires
contracting officers to ensure that contractors comply with the reporting requirements of
the FAR clause. However, the interim rules state that contracting officers are not
responsible for validating report content, only for ensuring that the contractor submitted
the required report. On August 25, 2009, the Civilian Agency Acquisition Council and
the Defense Acquisition Regulation Council issued a Federal Register notice informing
Federal contractors that they could start to register at www.FederalReporting.gov.

OMB Memorandum (M-09-21), “Implementing Guidance for the Reports on the
Use of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
June 22, 2009. The memorandum transmits Government-wide guidance for carrying out
the reporting requirements in section 1512 of the Recovery Act as it applies to recipients
of grants, loans, tribal agreements, cooperative agreements, and other forms of assistance.
In addition, the memorandum requires that Federal agencies and departments develop
internal policy and procedures for reviewing reported data. The data quality reviews are
intended to focus on two key data problems—material omissions and significant errors.
The memorandum defines material omissions as instances where the recipient does not
report the required data or the reported information is not responsive to the data requests,
resulting in significant risk that the public is not fully informed as to the status of a
Recovery Act project or activity. The memorandum defines significant reporting errors
as those instances where a recipient does not report required data accurately and such
erroneous reporting results in significant risk that the public would be misled or confused
by the recipient report. However, OMB specifically excluded recipients of Federal
contracts awarded under the Recovery Act from the provisions of the memorandum. The
memorandum states that OMB would issue further guidance on reporting by Federal
contractors.

OMB Memorandum, “Interim Guidance on Reviewing Contractor Reports on the
Use of Recovery Act Funds in Accordance with FAR Clause 52.204-11,”
September 30, 2009. The memorandum, issued less than 2 weeks before the first reports
were available for review on October 11, 2009, provides Federal agencies and
departments the information necessary to fulfill their responsibilities for ensuring that
Federal contractors comply with FAR clause 52.204-11 reporting requirements. Agency
and department personnel are required to review reported contractor data for consistency
with contract award information, significant errors, and material omissions. The
memorandum states that agency and department personnel are not expected to validate
data for which they would not normally have supporting information, such as
compensation information required of contractors. However, the reviewers should notify
the contractor of any obvious significant error or material omission. The memorandum
prescribes the following reporting and reviewing timelines in terms of days after the end
of the calendar quarter. 4




4
  The reporting and reviewing timelines for recipients of Federal contracts are the same as those for
recipients of grants and loans covered by OMB Memorandum M-09-21.


                                                      3

•	 Day 1-10: Contractors prepare and submit their reports to
   www.FederalReporting.gov.

•	 Day 11-21: Contractors review and make any corrections to data they or their
   sub-contractors report. Agencies may review the contractor’s report, but the
   system will not provide agency reviewers the ability to comment until day 22.

•	 Day 22-29: The agency reviewer comments, if necessary, on the contractor
   reported data. The posting of the reviewer’s comments will unlock the report for
   editing by the contractor. The reporting tool includes a review status indicator
   showing that the agency reviewed with no comments, reviewed with comments,
   or did not review contractor reported data.

•	 Day 30: The public can view contractor reports on www.Recovery.gov.




                                       4

Audit Results
Since OMB issued OMB Memorandum (M-09-21) on June 22, 2009, and the interim
guidance on September 30, 2009, USACE has developed processes to perform for its
Civil Works Programs limited data quality reviews of data submitted by contract, grant,
and PPA recipients as required by section 1512 of the Recovery Act. USACE took steps
to inform recipients of Recovery Act funds to register and submit the required reports to
www.FederalReporting.gov. In addition, USACE had developed a process to identify
and assist recipients that had not registered before the October 1, 2009, reporting start
date. However, as of October 21, 2009, USACE reported that in total about one-third of
contract recipients had not registered, and recipients had not submitted a report on about
one-half of the contracts awarded. USACE has plans to improve the completeness and
accuracy of reports filed by recipients on www.FederalReporting.gov.

Recipient Notification

USACE took steps to inform recipients of Federal contracts, grants, and PPAs regarding
the requirements and deadlines for registering and submitting reports to
www.FederalReporting.gov. Specifically:

   •	 On March 31, 2009, the USACE Directorate of Contracting notified its
      contracting activities to include the FAR clause 52.204-11 on contractor reporting
      requirements in Federal solicitations and contracts funded in whole or in part with
      Recovery Act funds.

   •	 Headquarters, USACE, issued guidance on July 22, 2009, outlining requirements
      and timelines for recipients to register and submit reports to
      www.FederalReporting.gov. The guidance instructed USACE personnel to insert
      recipient reporting instructions in all Recovery Act contracts, grants, and PPAs
      and to work with recipients to begin registering on August 26, 2009. In addition,
      the guidance instructed subordinate organizations to review recipient report data
      and to communicate any required changes to the recipients.

   •	 On September 4, 2009, USACE used its Recovery Act Web site to publish
      guidelines for prime and sub-recipients to follow in reporting information on
      www.FederalReporting.gov.

Processes
Registering Recipients
As required by FAR Case 2009-009, March 31, 2009, USACE developed a process to
ensure that contractors registered on www.FederalReporting.gov. On
September 16, 2009, USACE received the initial report of recipients registered on
www.FederalReporting.gov. USACE used the information reported there to develop a



                                            5

spreadsheet comparing contractors registered on www.FederalReporting.gov to the
contractors awarded a Recovery Act funded contract as reported to the Federal
Procurement Data System-Next Generation. On September 23, 2009, Headquarters,
USACE, instructed subordinate organizations to use the spreadsheet located on the
USACE SharePoint Web site to identify and assist contractors that had not registered. In
addition, USACE created a spreadsheet to track daily progress made in registering
contract recipients. However, USACE officials acknowledged that the contracting
personnel responsible for assisting contractors in registering were at that time focused on
completing contract awards before FY 2009 year-end. On October 5, 2009,
Headquarters, USACE, reminded subordinate organizations of their responsibility to
assist contractors in registering on www.FederalReporting.gov and to review and
comment on the reported data. Because USACE does not report grants and PPA awards
to the Federal Procurement Data System-Next Generation, USACE developed a separate
spreadsheet to track registration by the sponsors of grants and PPAs. On
October 4, 2009, Headquarters, USACE, notified subordinate organizations that they
should follow up to ensure grant and PPA sponsors are registered.

Data Quality Review
Headquarters, USACE, has developed and provided its subordinate organizations with a
process to assist in performing limited data quality reviews of reports filed by recipients
on www.FederalReporting.gov. USACE had access to reports filed by recipients
beginning October 11, 2009. On October 14, 2009, and again on October 19, 2009,
Headquarters, USACE, issued instructions on the use of a data validation tool developed
to assist contracting personnel in reviewing and validating data reported by contractors.
The tool compared contract data from the Federal Procurement Data System-Next
Generation to data reported by recipients on www.FederalReporting.gov. The tool
generated reports that identified contract recipients that had not registered, recipients that
had not filed a report on a contract award, and discrepancies in selected contract data
elements reported in the two systems. The instructions stated that the validation tool was
to complement, not to replace, the review of individual recipient reports. To conduct
quality reviews of data reported by grant and PPA recipients, Headquarters, USACE,
gave its subordinate organizations a spreadsheet showing data reported to
www.FederalReporting.gov so that they could manually compare grants and PPAs.

Continuing Efforts
As of October 21, 2009, Headquarters, USACE, continued to work with subordinate
organizations to get Federal contractors and grant and PPA sponsors to register and
submit reports to www.FederalReporting.gov. In addition, USACE instructed
subordinate organizations to review reported data for anomalies such as over- or
understated jobs created based on contract award amount. However, as of
October 21, 2009, USACE reported for the combined Civil Works and Military Programs
that about one-third of contractors had not registered and contractors had not submitted a
report on about one-half of the contracts awarded. As a result, the data reported on
www.Recovery.gov for the quarter ending September 30, 2009, may contain material
omissions or significant reporting errors, resulting in a significant risk that the public may
not be fully informed as to the status of a Recovery Act project or activity. Going


                                              6

forward, USACE officials stated that they would conduct an evaluation of the reporting
and quality review processes to develop a list of lessons learned and actions needed to
improve the completeness of recipient reports. In addition, USACE will continue to
refine the data validation tool to assist the contracting personnel in their review and
validation of reported data. Further, USACE plans to include a checklist to evaluate the
effectiveness of the data quality reviews of recipient-reported data as part of the
Recovery Act quarterly quality assurance review program.

Because of the reporting deadline established by the RATB for this audit, we did not visit
USACE field organizations to determine why recipients did not register or submit
reports. We also did not evaluate the effectiveness of quality control reviews to identify
material omissions or significant reporting errors, and consequently, we are not making
any recommendations. We will continue to review DOD’s progress in implementing the
Recovery Act, and we may conduct additional work on the adequacy of USACE’s data
quality reviews to identify material omissions and significant reporting errors in recipient
data.




                                             7

Appendix A. Scope and Methodology
This is the second in a series of memorandums on the Recovery Act. We conducted this
audit from September through October 2009 with limited use of generally accepted
government auditing standards. For this audit, we followed the standards of
independence, supervision, sufficient evidence, and reporting. Due to the unique
requirements of the Recovery Act, along with time limitations for planning and
completing this audit, we did not fully comply with the fieldwork auditing standards of
assessing fraud risk, reviewing internal controls, and identifying data and information
system controls.

Generally accepted government auditing standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions based on our audit objectives. We believe omitting the procedures described
above did not limit our ability to conclude on the audit objective to determine whether
USACE had established processes to perform limited data quality reviews intended to:
(1) identify material omissions and significant reporting errors in recipient report data and
(2) notify the recipients of the need to make appropriate and timely changes. We believe
that the evidence obtained provides a reasonable basis for our conclusions based on our
audit objective.

We reviewed the policy and guidance issued by USACE for performing data quality
reviews of recipient reported data. We interviewed personnel and performed a limited
walk-through at USACE Headquarters to obtain an overview of actions taken and
planned to ensure that recipients registered and submitted required reports. We also
obtained information about USACE plans for responsible organizations to perform
limited data quality reviews for identifying material omissions and significant reporting
errors. We compared the USACE processes for performing data quality reviews to the
policy and guidance issued by OMB. In addition, we obtained USACE data on recipients
registered and filing reports on www.FederalReporting.gov. Because of the reporting
deadline established by the RATB, we did not make site visits to USACE organizations
to determine reasons for late registration and reporting by recipients or evaluate the
effectiveness of the procedures for performing data quality reviews.




                                             8

